BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 40 copies and
1 unbound copy of the foregoing Brief of Former
United States Immigration Judges and Members of the
Board of Immigration Appeals as Amici Curiae in
Support of Respondents in 19-897, Tony H. Pham,
Senior Official Performing the Duties of the Director of
U.S. Immigration and Customs Enforcement, et al. v.
Maria Angelica Guzman Chavez, et al., were sent via
Next Day Service to the U.S. Supreme Court, and 3
copies were sent via Next Day Service and e-mail to
the following parties listed below, this 12th day of
November, 2020:
Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
Room 5616
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for Petitioners
Paul W. Hughes
McDermott Will & Emery LLP
500 North Capitol Street, NW
Washington, DC 20001-1531
(202) 7 56-8981
PHughes@mwe.com

Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite l 02
Cincinnati, Ohio 45249

Franklin Square

! 1300 I Street, NW, Suite 400E
Washington, DC 20005

David G. Keyko
Counsel of Record
Pillsbury Winthrop Shaw Pittman LLP
31 West 52nd Street
New York, NY 10019
(212) 858-1379
david.keyko@pillsburylaw.com

Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on November 12, 2020.

Donna J. Wolf
Becker Gallagher Legal Publishing, nc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

/G,l,iC/vl ~ / J , dO Ou

(ffk l1,

Notary Public

kJ~

[seal]
JOHN 0. GALU..G; i!::R
Notary Public, State of Oi1io
ri1y Commission Expires
rehn1:irv

11 . ;:ir ?3

'.

